                                  EVALUATION




 THE NATIONAL BISON RANGE




Report No.: NM-EV-FWS-0001-2010      March 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR
                                                                              MAR 30 2Un


Memorandum

To:            Rowan W. Gould
               Acting Director, U.S. Fish and Wildlife Service

From:          Mary L. Kendal"l71(      /}~ ddf
                                        /
               Acting Inspector Gene ~ ~

Subject:       Evaluation - The National Bison Range
               Report No. NM-EV-FWS-0001-2010

       This memorandum transmits the findings of our evaluation of the National Bison Range
(NBR) operations in response to a complaint from Public Employees for Environmental
Responsibility (PEER). PEER alleged that specific operational and management deficiencies
involving law enforcement, bison containment, pesticide application, work planning, and
management activities existed at NBR.

        At the time of our evaluation, NBR operated as a partnership between the U. S. Fish and
Wildlife Service (FWS) and the Confederated Salish and Kootenai Tribes (CSKT). CSKT
participated in NBR operations under an annual funding agreement signed with FWS. CSKT is
not presently involved in NBR operations due to the rescission of the agreement by a U.S.
District Court judge.

       We found deficiencies in work planning activities required by the annual funding
agreement, as PEER alleged. We did not find any current evidence to support allegations of
operational deficiencies in the other programs included in the PEER allegations. In a draft report,
we offered two recommendations to improve NBR operations.

       In FWS ' s February 10, 2011 response to the draft report, the acting director concurred
with our recommendations and provided a corrective action plan (See Attachment 3). We
consider one recommendation to be resolved and implemented, and the other resolved but not yet
implemented.

      If you have any questions about this report, please do not hesitate to contact me at 202-
208-5745.

Attachments (3)




                               Office of Inspector General I Washington. DC
                                                                                     Attachment 1


Background

        The National Bison Range (NBR) is part of the National Wildlife Refuge System and was
established in 1908 for the preservation of the American bison at a time when these animals were
threatened by extinction. NBR is located within the Flathead Indian Reservation, home to the
Confederated Salish and Kootenai Tribes (CSKT). These tribes claim an ancestral connection to
the origins of the bison herd.

        The U. S. Fish and Wildlife Service (FWS) and CSKT entered into annual funding
agreements for joint NBR operation in accordance with provisions of the Indian Self-
Determination Act Amendments of 1994 (Tribal Self-Governance Act). The first agreement
became effective March 15, 2005. In September 2006, the Office of Inspector General (OIG)
received allegations that senior U. S. Department of the Interior officials improperly influenced
the creation of that agreement. We conducted an investigation and concluded that nothing
improper or illegal occurred.

       In June 2008, FWS and CSKT signed a second annual funding agreement for NBR
operations. That agreement, which was in effect during our current evaluation, was set to expire
on September 30, 2011. The agreement specified that CSKT would perform substantive
management activities involving biological, fire, maintenance, and visitor services activities at
NBR. FWS retained the refuge manager and deputy refuge manager positions, as well as
responsibility for the law enforcement program.

         On February 24, 2010, Public Employees for Environmental Responsibility (PEER)
contacted the OIG with specific allegations of operational and management deficiencies in NBR
activities involving law enforcement, bison containment, pesticide application, work planning,
and management. PEER asserted that the responsibilities assigned to CSKT by the annual
funding agreement had precipitated the deficiencies.

        On September 28, 2010, a U.S. District Court judge in Washington, DC, rescinded the
annual funding agreement in response to a lawsuit filed by PEER and other plaintiffs. The judge
ruled that the annual funding agreement was an arbitrary and capricious agency action in that
FWS failed to formally invoke a categorical exclusion for an environmental analysis as required
under the National Environmental Policy Act. CSKT involvement in NBR operations ceased the
following day.

Law Enforcement Coverage

        PEER alleged that an inadequate law enforcement presence at NBR resulted in the
inability to respond to acts of arson, poaching, and illegal hunting. PEER based its complaint on
a memorandum, Law Enforcement Status Report for 2009, which the NBR deputy refuge
manager sent to the NBR refuge manager on September 8, 2009. In that memorandum, the
deputy manager, who is responsible for law enforcement as a collateral duty, wrote that
inadequate law enforcement coverage precluded him from properly investigating criminal
incidents. He recommended that NBR hire either two dual-function officers or one full-time
officer to handle law enforcement duties.


                                                                                                    1
        While insufficient law enforcement coverage may have existed at the time the
memorandum was written, we found that law enforcement coverage at NBR was adequate. We
interviewed FWS and CSKT managers and employees assigned to NBR about the adequacy of
law enforcement coverage. None of the interviewees, including the deputy refuge manager who
wrote the September 2009 memorandum, expressed concerns that law enforcement coverage was
insufficient.

        In July 2010, FWS hired a full-time law enforcement officer at NBR in response to a
request from NBR management. We noted, however, that the officer’s occasional absence from
the refuge on temporary assignments may result in brief periods where only the deputy refuge
manager is available to perform law enforcement duties.

Bison Containment

        PEER alleged that repeated fence openings at NBR allowed the bison to wander. This
allegation was based on the previously cited memorandum, Law Enforcement Status Report for
2009, which reported an August 22, 2009 incident when 150 bison had to be rounded up and
returned to their assigned grazing unit after they wandered into another pasture through an
unlatched gate. The memorandum referenced two other similar incidents that occurred since
October 2007.

        We found that during the incidents cited by PEER, bison did not wander outside NBR
boundaries. Rather, they moved between fenced pastures. The bison were neither in danger nor
did they suffer food deprivation. They merely found their way into the wrong pastures.
Employees recounted only one occasion in the 1990s when bison crossed outside of NBR
boundary lines into an adjoining rancher’s pasture. We observed that both exterior boundary and
interior pasture fencing were well maintained and appeared adequate to retain the herd. Damaged
fences were promptly repaired.

        Interviews with NBR staff indicated that such incidents were commonplace and rectified
in the normal course of operations. CSKT and FWS managers and employees explained that
incidents of bison wandering into the wrong pasture occurred long before CSKT assumed
specific NBR functions. One employee, who has 25 years of experience at NBR, said that such
escapes occurred daily before electrified fencing was installed in the 1990s. Since then, elk have
continued to jump into the pastures and ground out the electricity, thus allowing bison to get
through fences. Gates between pastures also have been left unlatched, facilitating the animals’
passage between pastures. Another employee, who has 16 years of NBR experience, said that
bison getting into the wrong pasture “always happens. You just go and get them, it’s no big
deal.”

Pesticide Application

       PEER alleged that CSKT workers routinely violated pesticide label instructions when
applying the chemicals. The allegation included an FWS employee’s May 22, 2009 written
account of employees violating label instructions for high wind speeds during a specific spraying
application.


                                                                                                 2
       We randomly reviewed NBR 2010 pesticide application records to evaluate whether or
not chemicals had been applied according to application instructions. We did not find any
instance where an NBR employee violated pesticide application instructions. We identified only
one instance of noncompliance where the specified rate of pesticide application was exceeded by
a member of the FWS Invasive Species Strike Team, which travels among refuge system sites to
conduct necessary spraying. An FWS representative acknowledged that the incident was a
mistake made by a team member, not an NBR employee.

        We also interviewed the FWS employee who wrote the critical May 22, 2009 account
cited by PEER. The employee said that his comments were taken out of context and that the
situation was a “non-issue.” All other FWS and CSKT managers and employees we interviewed
expressed no concerns about pesticide application.

        In September 2010, the U.S. Environmental Protection Agency (EPA) performed a
routine inspection at NBR that compared pesticide use to pesticide label instructions. The EPA
inspection did not result in any adverse findings.

Work Plans

        PEER alleged that 2009 and 2010 NBR operational work plans required by the annual
funding agreement were not completed. The allegation also included an August 11, 2009 email
from the CSKT tribal deputy refuge manager to other NBR employees that indicated the 2009
plan of work was significantly past due.

              The annual funding agreement required that an operational work plan be
completed by the start of each fiscal year (FY). This plan was expected to contain routine,
ongoing, and project-specific work descriptions. We found that the FY2009 plan was never
completed and that the FY2010 plan was not completed in a timely manner. The FY2010 work
plan was not completed until April 2010. The FWS refuge manager acknowledged that the plan
should have been completed by October 2009.

        FWS and CSKT managers and staff told us that they were unable to create the 2009 plan
due to the basic demands of NBR operations while CSKT staff was being hired. The CSKT tribal
deputy refuge manager started in December 2008 and most CSKT employees were hired in the
second quarter of the fiscal year. A CSKT employee who started at NBR in December 2008 said
that he and many other new CSKT employees were “scrambling all year just to get things done.”
NBR managers said they followed the 2008 work plan for 2009 operations and that operations
had not changed significantly between those years.

Management

        PEER alleged that NBR management was “adrift” and that the bison range was
experiencing a “leaderless malaise.” The allegation included a May 27, 2009 internal
communication from the NBR deputy manager to the manager, expressing a lack of direction,
specifically in the biological program.


                                                                                                 3
        We did not find any significant information to support this allegation. Nearly all FWS
and CSKT employees that we interviewed said they had no major concerns with management.
Interviewees told us that the FWS manager and the CSKT tribal deputy manager worked well
together and collaborated on operational decisions. They stated that managers sought out
experienced NBR staff regarding their opinions on various issues and did not differentiate
according to whether they were FWS or CSKT employees. Interviewees also said that free and
open communication existed between FWS and CSKT employees.

         The NBR lead biologist position, which is a CSKT position under the annual funding
agreement, was vacant at the time of our evaluation. CSKT officials said the position had been
advertised but that hiring requirements hindered finding a qualified person. NBR managers and
staff said that the position’s duties were capably handled in the interim by a highly regarded
CSKT staff member who was also a biologist. Furthermore, the FWS employee who wrote the
critical document cited by PEER in its complaint reported that operation of the biology program
had improved and that the interim lead employee provided excellent direction.

       One employee expressed concern that the NBR leadership team did not meet weekly as
required by the annual funding agreement. NBR managers stated that this requirement was
unreasonable and that the intent of these meetings was being fulfilled through regular, informal
communication among leadership team members and staff. We found no evidence that NBR
suffered from a lack of formal weekly meetings.

Recommendations

       We recommend that NBR management:

         1. Monitor and control pesticide applications performed by outside parties.

             Department Response: The Refuge Manager will ensure that all pesticide
             applications at the National Bison Range Complex, including those performed by
             outside parties, are in compliance with 242 FW 7, Pesticide User’s Safety, and 569
             FW 1, Integrated Pest Management

             OIG Reply: We consider this recommendation to be resolved and implemented.

         2. Reconsider the hiring requirements for the lead biologist and fill the position.

             Department Response: The hiring requirements for the lead biologist position at
             NBR has [sic] been revised. The opening will be advertised as a career ladder
             position and filled below the full performance level, GS-12. The positions will
             reflect the Office of Personnel Management’s qualification standards for federal
             employees, not the more stringent qualification standards used by the CSKT
             (Confederated Salish and Kootenai Tribes). It is the intent of the Service to fill this
             position in the current fiscal year pending final appropriation legislation from
             Congress, and decisions regarding what, if any, type of involvement the CSKT will
             have at the NBR. While the position is currently vacant, we believe we have met the

                                                                                                   4
intent and purpose of Recommendation #2 and consider no further action is
required.

OIG Reply: We consider this recommendation to be resolved but not yet
implemented until the position is filled.




                                                                            5
                                                                                  Attachment 2


Scope and Methodology

Scope

        We performed our evaluation in accordance with the President’s Council on Integrity and
Efficiency “Quality Standards for Inspections.” Our evaluation focused on NBR operations in
response to allegations received from PEER. Our objective was to determine if specific
mismanagement and operational deficiencies existed as PEER alleged.

Methodology

        We performed our evaluation from June to October, 2010. Documents reviewed included
the PEER allegations, the annual funding agreement between FWS and CSKT, and NBR
pesticide application records. Interviews included FWS and CSKT managers and staff, CSKT
tribal personnel, former NBR employees, and EPA inspection personnel. We believe that the
work performed provides a reasonable basis for our conclusions and recommendations.




                                                                                              1
                                                                                         Attachment 3
                                                                                             U.s.
                                                                                       FISH & WILDI.IFE
                                                                                           SE RVICE




                                                                                       ~
                    United States Department of the Interior
                               FISH AND WILDLIFE SERVICE
                                      Washington, D.C. 20240


                                           FEB 1 0 2011




In Reply Refer To
FWS/ABHC/PDM/047309




To:

From:

Subject:
              ~ctin2
              Ulrecror   :t
              Assistant Inspector General for Audits, Inspections, and Evaluations

                                :JI"~JL~~e;K.uL.6Z

              USFWS (Serv'ce) response to Draft Evaluation - The National Bison Range
              Report No. NM-EV-FWS-0001-20l0

This memorandum is in response to your January 6, 2011, memorandum that transmitted the
findings of your draft evaluation of the National Bison Range (NBR) operations. Your
evaluation was completed in response to a complaint from Public Employees for Environmental
Responsibility who alleged that specific operational and management deficiencies involving law
enforcement, bison containment, pesticide application, work planning, and management
activities existed at NBR.

The Service has reviewed the draft report and has no recommended changes. The report offered
two recommendations for improved operations at NBR. Management actions are already
underway in response to this evaluation and recommendations as indicated in the attached
corrective action plan.

Attachment




                                TAKE PRIDE®lif==: 1
                                 INM"IERICA~
                               CORRECTIVE ACTION PLAN
                         Draft Evaluation - The National Bison Range
                             Report No. NM-EV-FWS-0001-2010
                                       January 6, 2011

The draft evaluation contains two recommendations and corrective actions are underway as
indicated below:

Recommendation #1. Monitor and control pesticide applications performed by outside
parties.

The Refuge Manager will insure that all pesticide applications at the National Bison Range
Complex, including those performed by outside parties, are in compliance with 242 FW 7,
Pesticide User's Safety, and 569 FW 1, Integrated Pest Management. These manual chapters
contain current U. S. Fish and Wildlife Service policy that requires pesticide application
consistent with the rates specified on the label and applicable state and local requirements. No
further action required.

Responsible Official: Refuge Manager, National Bison Range Complex

Recommendation #2. Reconsider the hiring requirements for the lead biologist and fill the
position.

The hiring requirements for the lead biologist position at NBR has been revised. The opening
will be advertised as a career ladder position and filled below the full performance level, GS-12.
The positions will reflect the Office of Personnel Management's qualification standards for
federal employees, not the more stringent qualification standards used by the CSKT
(Confederated Salish and Kootenai Tribes). It is the intent of the Service to fill this position in
the current fiscal year pending final appropriation legislation from Congress, and decisions
regarding what, if any, type of involvement the CSKT will have at the NBR. While the position
is currently vacant, we believe we have met the intent and purpose of Recommendation #2 and
consider no further action is required.

Responsible Official: Regional Director




                                                                                                   2
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            703-487-5435

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
